                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: 108010006                                                                     Page 1 of 1



          We received an allegation that an NSF emp10yee l (Subject) was taking leave and failing to report
          it. We reviewed and analyzed the Subject's Official Personnel File (OPF), Integrated Time and
          Attendance System (ITAS) records, telephone records, and Outlook folders. We also conducted
          interviews with the Subject and others in hislher division.

          Based on our investigation, we concluded that the Subject failed to properly account for hislher
          time worked and leave taken, in order to receive both pay and credit for 49 hours he/she did not
          work. As a result, the monetary loss to NSF totaled $974.50. We issued an Investigative Report2
          recommending that NSF take appropriate administrative action. Consequently, NSF issued an
          Official Reprimand for Unacceptable Conduct3 and adjusted the Subject's time records; however,
          the Subject did not have enough leave to cover the absences, so he/she was required to return
          $711.31 to NSF.                                                     .

                    Accordingly, this case is closed.




NSF OIG Form 2 (11102)
s
CONFIDENTIAL                               CONFIDENTIAL




      National Scie"nce Found'ation
       Office of Inspector General




                     Confidential
                Report of Investigation
               Case Number 108010006
                      ,


                   August 26, 2009




                                      NSF OIG Form 22b (11106)
     Please note: This report contains confidential personal information and it should be disclosed
     only to individuals who must have knowledge of its 'contents to facilitate NSF's assessment
     and resolution of this matter. Unauthori:red disclosure may result in personal criminal
     liability under the Privacy Act, 5 U.S.C. § 552a(i)(1).



I.           Summary

We received an anonymous allegation that an NSF employee l (Subject) was taking leave and
failing to report it. As part of our investigation, we reviewed and analyzed the Subject's Official
Personnel File (OPF), Integrated Time and Attendance System (ITAS) records, telephone
records, and Outlook folders. We also conducted interviews of the Subject and others in her
division. 2

Based on our investigation, we conclude that:

         •        The Subject failed to meet the standards of conduct expected of NSF and executive
                  branch employees; and

        •         The Subject was credited for hours she' did not work; therefore receiving payment and
                  leave hours beyond what she earned. \

This report summarizes our investigative findings with respect to these conclusions.

II.          OIG Investigation.

             A.      Investigative Activity into Subject 's,iAlleged Time and Attendance Abuse

The Subject, a Program and Technology Specialist, has worked at NSF for six years, the last two
of which in her current division. 3 Her duties include proposal and award processing, managing
the division's IT equipment, processing travel fot program officers and panelists, and performing
other general administrative tasks. Hence, as we;ascertained via interviews,4 her position
requires regular communication with coworkers and others via telephone and email throughout
the day.




                                                          I
4   Tab 1, Memorandum of Interview (MOl): Interview of Administrative Officer.


                                                       -H
As part of our investigation, we sought to establish the Subject's familiarity with the ITAS
system and NSF's leave and attendance policies. We determined the Subject served as a primary
timekeeper for "2-3 months"S and an alternate timekeeper "for a year or SO,,,6 during which time
she had to use and understand the ITAS system and apply NSF's leave policies. 7 Therefore, we
concluded the Subject is proficient with ITAS and the policies governing attendance and leave.

The Subject's normal tour of duty is 7:00 a.m. to 3:30 p.m. She frequently commutes to work
via vanpool, and on those days she works until 4:00 p.m.; typically, earning 0.5 credit hours.
Currently, the Subject is teleworking two days per week as an accommodation, which was
arranged through NSF's Office of Equal Employment Opportunity Programs (OEOP).8

                     Document Review Revealed Time and Attendance Abuse

We reviewed the Subject's ITAS records, specifically the sign in/out records and the timecards,
for March 2006 to March 2008. For those days in which the Subject either did not sign in and/or
out or modified her sign in time, we also reviewed the Subject's Outlook calendar and emails to
locate evidence or some indicia that the Subject worked the full eight hours claimed and for
which, ultimately, she was paid.

Based on our review of the Subject's emails, we determined the Subject routinely sent emails
shortly after she arrived at work each day. We also determined the Subject typically sent einails
consistently throughout the day up until her departuf'e time. Based on these habits, we identified
numerous instances in which the Subject was paid for hours and full days for which there is no ':
email traffic from the Subject, no indication that she was attending training, in fact, no indication
she was performing any NSF-related function.                                                        '

Furthermore, based on our analysis of two years of timecard data, we determined the Subject
f~led to sign in and out ofITAS on a regular basis. Specifically, the Subject did not sign out of
ITAS for 33 of349 days in the office, or approximately 9.5 percent of the time. 9 In addition, we
determined the Subject modified her sign in time 31 of 349 days in the office, amounting to
ne!ll"ly 9 percent of the 2-year timeframe.

Based on the analysis of the Subject's ITAS records, Outlook calendar, emails, and phone
records, we identified 10 days for which we conclude the subject was paid for time she did not
work: 5 of which the Subject did not sign out and 5 of which the Subject failed completely to "
account for her time. For these 10 days, the Subject earned $974.50 for 49 hours she did not
work. lO The following chart summarizes the number of hours lost and monetary loss to NSF
resulting from the Subject's time and attendance abuse:


5 Tab 2, p. 1 of Subject's handwritten statement.
6 Ibid.
7 She served as a timekeeper until a division secretary w~s hired, at which time the Subject relinquished her
timekeeping responsibilities.
8 OIG was made aware of the Subject's illness, which was diagnosed in October 2007. As a result, OIG's analysis
focused predominately on the time frame of March 2006 to September 2007.
9 Tab 3, MOl: Comprehensive Analysis.
10 Ibid.




                                                      -2-
                                    2/19/06 to 1/6/07     1/7/07 to 10/13/07    1/6/08 to 10/25/08
       Subject's Grade/Step            GS-07/04               GS-07/04              GS-09/01
       Annual Salary                         $ 40,337                $ 41,405             $ 48,108
       Hourly Salary                         $ 19.33                 $ 19.84              $ 23.05
       Hours Not Worked                            :8                      39                    2
       Monetary Loss to NSF                  $ 154:64                $ 773.76             $ 46.10
       Total Monetary Loss                                     $ 974.50

                                                  I

                             Subject Denied Time and Attendance Abuse

We interviewed the Subject on November 13,2008, at which time the Subject denied she had
abused the time and attendance system; thus denying the allegation. l1 Specifically, the Subject
stated she faiied to sign out at the end of the day only if she left straight from a meeting or was
running to meet her vanpool.

We presented the Subject with emails for two days12 on which she agreed to leave early to
accommodate her vanpool and showed the corresponding time sheets indicating she failed to sign
out and was credited for two full days of work; as a result, she received pay for 1.5 hours not
actually worked. In response, the Subject stated the former administrative officer (AO)13 must
not have entered her time correctly into ITAS.:However, during our review of the Subject's
emails, we could not locate any email indicating that the Subject had provided the AO with her
actual departure time. Next, we discussed another day14 during which the Subject sent an email.
to an NSF co-worker claiming to be home sick. Records show that on this date the Subject did
not use any sick or annual leave, and conseque~tly, received credit and pay for eight hours. We
presented the Subject with a second email she sent the same day, in which she wrote she was
home "goofing off."· The Subject claimed the second email was sent to a neighbor, not a friend;
hence she would not have discussed her business with that neighbor. When asked why we did
not locate emails for the aforementioned date indicating the Subject properly reported her
absence or was performing her official duties at home, the Subject stated she generally called the
former AO when she would be out of the office, and that she "would not just not come in." In
our review of the SUbject's NSF telephone reco,ds, we located two incoming phone calls from
the Subject's home phone number at 11 :43 a.m~ and 12:30 p.m. We do not believe these two
phone calls indicate the Subject actually worked that day, particularly in the absence of any
emails to NSF coworkers demonstrating she wdsperforming her official duties at home.
                                                      I

Throughout the interview, the Subject repeatedly blamed her former supervisor, the former AO,
for the discrepancies in her leave. At various times during the interview, she characterized the
former AO inconsistently: as strict at one point and t~en as lax at another juncture.


11   Tab 2.
12   February 1,2007 and May 25,2007.
13
     1• • •
14   August 23, 2006.
The day after the interview, the Subject submitted a written statement, in which she described the
former AO as in an "'I don't want to be here' mode" and "aloof about many things.,,15 In her
written statement, the Subject also stated, "I did not know my leave was not being charged." The
Subject claimed she did not check ITAS to see if her leave hours were entered, because she
thought the timekeeper was taking care of it. She also claimed: "I always made several people
aware of my early departures," none of whom appear to have been her timekeyper.

        B.      Review ofApplicable Rules and Regulations

As described above, the Subject failed to properly and accurately account for her time. She
failed to properly sign outonseveral occasions and failed to notify her timekeeper of the
discrepancy between her actual time and the time she received credit for. She also failed to
account for leave taken. Given her role as a timekeeper in the past, the Subject knew how to use
the ITAS system and was familiar with NSF's time and attendance policies .. Based on her
actions, the Subject showed a lack of integrity and violated policies and rules applicable to
employees of NSF and of the executive branch of the federal government. 16

Specifically, pursuant to 5 C.F.R. § 2635.101, "public service is a public trust," requiring
executive branch employees to "respect and adhere to the principles of ethical conduct,,,17 and to
"put forth honest effort in.the performance of their duties.,,18 In addition, "employees shall
endeavor to avoid any actions creating the appearance that they are violating the law or the
ethical standards.,,19

NSF Manual 15, Conflicts oflnterest and Standards of Ethical Conduct, adopts the principles set
forth above. 2o Furth~r, Section 56 of NSF Manual 15 requires that employees use their official
time "only in an honest effort to perform official duties."

NSF Manual 14, NSF's Personnel Manual, sets for the expectations of its Flexitime program that
allows employees to have discretion to change their work hours on a daily basis, to allow them
flexibility. To ensure accountability, NSF uses the ITAS system to "provide affirmative
evidence that each employee subject to the flexitime has properly accounted for their work
hourS.,,21 Further, NSF's Personnel Manual requires officials to approve annual leave before an
employee uses it; however, in an emergency, an employee must notify their supervisor before
they are scheduled to be at work, or as soon as possible thereafter (normally not more than one
hour).22 Similarly, if an employee is unable to work due to illness and needs to use sick leave,



15 Tab 2, p. 3 of Subject's handwritten statement.
16 While no policies pertaining to the use of ITAS currently exist, the Subject stated during her interview and in her
written statement that she usually emailed her timekeeper or supervisor to notify them of her early departures,        .
absences, and telecommuting sign ins/outs. Based on interviews with other. staff, this appears to be the
procedure in the division.
17
   5 C.F.R. § 2635.101 (a).
18 5 C.F.R. § 2635.101 (b)(5).
19
   5 C.F.R. § 2635.101 (b)(14).
20 NSF Manual 15, Section 3.
21 NSF Manual 14, Chapter VIII, Subchapter 100, Sectiori 146.
22 NSF Manual 14,-Chapter VIII, Subchapter 300, Section 332.




                                                          -4-
the employee must notify their supervisor before, or as soon as ~ossible after, the time they are
scheduled to report to duty (normally not more than one hour).2


III.       OIG Conclusions and Recommendations

Based on the facts presented above, we conclude that the Subject failed to properly account for
her time worked and leave taken, in order to receive both pay and credit for 49 hours she did not
work. As a result, the monetary loss to NSF totals $974.50.

We recommend NSF take appropriate administrative action with regard to the Subject.
                                                 "




23   NSF Manual 14, Chapter VIII, Subchapter 300, Section 342.


                                                        -5-
                      List of Attachments

Tab 1   MOl: Interview of Administrative Officer

Tab 2   MOl: Interview of Subject

Tab 3   MOl: Comprehensive Analysis




    \




                               -6-
                                e
                              , NSF
                                          National Science Foundation
                                          4201 Wilson Boulevard
                                          Arlington. Virginia 22230 ,



    Memorandum
                                                                                                  J   ,
                        , -

    Date:          October 23, 2009

    To:


    From:


    Subject:       Official Reprimand
                   J.
                                                                    ,       .
                                                                    .   ~       '.
    This memorandum is ari Official Reprimand for Unacceptable Conduct. The specifics and
    details of this misconduct are detailed below.
                                                                                                 r
    As background, an inquiry was initiated into your reporting of leave by the Office of the Inspector
    General (OIG). regarding an allegation that you were routinely taking leave and failing to report
    it. The resul,ts 'of that inquiry are. outlined in Investigative Report Number 108010006. which is'
    incorporated, into this memorandum by reference.

    y,
    ar,                                         G on November 13,'2008. You were provided the
    Garrity and Weingarten Wamings which ypu signed. You were provided an opportunity to
    submit a statement, which you provided to OIG at a later date.

    I have reviewed the investigative report and datal which confirms that you did not properly
    report your leave. Due to inaCcuracies in your: time and attendance records, you accepted pay
    for a total of 48.25 hours that you did not work on occasions detailed in the supporting
    documentation attached to this memorandum.

    By not properly signing into and/or out of ITAS on multiple occasions, and not ensuring that you
    were' charged leave when you had taken leave, you failed to follow the established procedures
    for employees •participating in NSF's f1exitime program. As established in NSF Man,ual 14,
I   "Personnel Man'ual (PER)," NSF uses the ITAS system to provide "affirmative evidence that
    each employee subject to f1exitime has properly accounted for their work hours." It was your
    responsibility to properly annotate your time records and to ensure that you were paid only for
    hours that you actually worked.

    I am issuing this official reprimand in order to hold you accountable for your actions. You are
    wamed in the strongest terms possible that any similar behavior on your part in the future will
    result in more severe disciplinary action being taken against you. You are expected to verify by
    the end of each pay period that all of your attendance and leave is correctly recorded'in ITAS,
    and to ensure that any inaccuracies are corrected. You are also expected to sign into and out of
    ITAS every day that you are onsite.
                                                 Ii
                                                                                                 2
                                                 ;,f

A copy of this reprimand will be placed in· your Official Personnel Folder for a period not to
exceed three years, unless I decide to remove it after one year, depending upon your conduct
during that time.

Your time records will be adjusted in order to correct the inaccuracies listed in the attached
documentation. As a result, you may receive a bill from NSF's payroll provider, in the event that
you did not liave enough leave to cover your absences at the time of these occurrences.

If you believe that a personal problem has contributed to or caused your inappropriate behavior,
I urge you to make an appointment with an Employee Assistance Program (EAP) Counselor.
This is a confidential program. and you may re~ch a counselor by calling the COPE at (202)
628-5100 to schedule an appointment. Recommending EAP is solely to advise you of the
availability of assist~nce. Ultimately. you are resppnsibJe for correcting your conduct..
                                                   !

At this time, you have the right to respond to this reprimand or to file a grievance under the
provisions of the Collective Bargaining Agreement. Any response you make may be presented
orally and/or in writing to me within ten (10) ,calendar days of the date you receive this
reprimand. I will give full consideration to any information you present before deciding whether
or not this reprimand will remain a matter of record. You will receive a written notice of my
decision as soon as possible.

In accordance with Article XVI of the Collective Bargaining Agreement, you may present a
grievance at any time after receipt of this memorandum, but not later than twenty-five (25)
calendar days after receipt. Your grievance must begin as an informal grievance and may be
presented either orally or in w r i t i n g . '
                                                   ,I                                        .
If you have any questions regarding your rights qr the procedures used in this matter, you may
conta                         . 1                          'n the Division of Human Resource
Manal .




I acknowledge receipt of this document.


                                                        /0/23/D7
Signature                                   Date

                                                         I   '
                                                                                                                              3




             Attachment 1

             Analysis of Time and Attendance

                                                                    Hours Worked as
                                    Recorded in 'ITAS                                   Hours
                                                                   Shown b Records
               Date                                                                    Paid Not                       Notes
                                                    Work
                         Sign In      Sign Out                    Time In   TimeOut    Worked
                                                  Hours Paid
                                                                                                        Sent e-mail to a co-worker
                          Didn't        Didn't                                                           that you were home sick.
    1       8/23/2006
                          sign in      sign out
                                                         8           -         -             8
                                                                                                         No sick leave recorded in
                                                                                                                    ITAS. '
                                                                                                         Sent e-mail to co-workers'
                                       . Didn't
    2        211/2007    7:06am                          8        7:06am    2:00 pm          1.5         that vanpool will depart at
                                       sign out
                                                                                                                  2:00 pm.
                                                                                                         Sent e-mail to supervisor
                         Didn't         Didn't                                                            that you would not be in
    3       '412712007
                         sign in       sign out
                                                        8            -         -             a          the office. No calls tolfrom
                                                                                                              your NSF phone.
                                                                                                          Sent a-mail to co-worker
                         Didn't         Didn't
    4       512512007                                   8         7:00 am   2:30 pm          1              agreeing to leave on
                         sign in       sign out
                                                                                                            van pool at 2:30 pm.
                         Didn't         Didn't                                                            No e-mails sent; no calls
    5       7/27/2007
                         sign in       sign out
                                                        8.5          -         --        8.5
                                                                                                          made from NSF phone,
                                                                                                         Sent e-mail to, supervisor
                                                                                                          that you will be out for a
                         Didn't        Didn't                                                          medical procedure. No sick
    6       8/20/2007
                         sign in      sign out
                                                        8           -          -             8
                                                                                                       leave recorded in ITAS. No
                                                                                                       e-mails sent; no calls made
                                                                                                             from NSF phone.
                                                                                                        Sent e-mail to supervisor:
                                                                                                          "am on email for a short
                         Didn't        Didn't                                                             moment. Sent e-mail to .
    7       812112007
                         sign in      sign out
                                                        8           -          -             8
                                                                                                                  D


                                                                                                        friend: "out on vacation of
                                                              ;                                         sorts»; no calls made from
                                                                                                                 NSF phone
                                       Didn't                                                             Last e-mail sent at 4: 17
    a   . 812212007
        I
                         9:20 am
                                      sign out
                                                        8         9:20 am   4:17 pm     1.75
                                                                                                                     pm.
                                                                                                        Sent e-mail to co-worker:
                                       Didn't                                                           "Leaving early... don'tfeel
    9       9/2612007    9:31 am                    7.75          9:30am    2:09 pm     ,3.5       I
                                                                                                         too welf"; last phone call
                                      sign out

I                                                                              Total
                                                                                        -'


                                                                                       48.25
                                                                                                        made from NSF phone at
                                                                                                                  2:09 pm              I
                                                                                                                                       I




                                                                                                                                           I'
                                                                                                                                           I!,
                                                                                                                                           I
